APPENDIX

la

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DAVID SAMARRIPA (17-6048/6260); STEPHON MASON (17-6166); JOSE ADRIAN HERNANDEZ (17-6213); ARNULFO TORRES PEREZ (17-6299); TIMMIE D. COLE, SR. (17-6333),
Petitioners-Appellants,
v.
J. RAY ORMOND, Warden,
Respondent-Appellee.

Nos. 17-6048/6166/6213/6260/6299/6333
Appeal from the United States District Court
for the Eastern District of Kentucky at London

No. 6:17-cv-00086—Danny C. Reeves, District Judge;
Nos. 6:17-cv-00072 & 6:17-cv-00082—Karen K. Caldwell, Chief District Judge;
No. 6:17-cv-00081—David L. Bunning, District Judge;
No. 6:17-cv-00150—Gregory F. Van Tatenhove, District Judge.

Argued: January 30, 2019

Decided and Filed: March 4, 2019

Before: SUTTON, GRIFFIN, and LARSEN, Circuit Judges

2a
COUNSEL
ARGUED: Katherine B. Wellington, HOGAN LOVELLS US LLP, Washington,
D.C., for Appellants. Edward Himmelfarb, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Appellee. James R. Saywell, JONES DAY,
Cleveland, Ohio, as Amicus Curiae. ON BRIEF: Katherine B. Wellington, HOGAN
LOVELLS US LLP, Washington, D.C., for Appellants. Edward Himmelfarb,
UNITED STATES DEPARTMENT OF JUSTICE, Washington, D.C., for Appellee.
James R. Saywell, JONES DAY, Cleveland, Ohio, as Amicus Curiae.

OPINION

SUTTON, Circuit Judge. Indigent individuals may seek permission in the district
court to appeal adverse judgments without prepayment of appellate filing fees. At
issue in today's five consolidated cases, each filed under 28 U.S.C. § 2241, is
whether district courts may grant such motions in part by requiring litigants to
prepay some, but not all, of the $505 appellate court filing fee. The law at issue says
that a federal court "may authorize the commencement, prosecution or defense of
any suit, action or proceeding, civil or criminal, or appeal therein, without
prepayment of fees" by a person who "is unable to pay such fees." 28 U.S.C.
§ 1915(a)(1). Nothing about this language deprives a district court of discretion to
require partial prepayment of appellate filing fees, and nothing about it alters the
pre-1996-amendment practice of doing just that. For these reasons and those
elaborated below, we agree with the district courts' partial fee rulings.

3a
I.
David Samarripa, Stephon Mason, Jose Hernandez, Arnulfo Perez, and Timmie
Cole—federal prisoners all—filed petitions for a writ of habeas corpus under 28
U.S.C. § 2241, arguing that their respective sentences are too long under federal
law. All five men paid the $5 habeas filing fee in the district court. Id. § 1914(a).
And each of them lost his petition on the merits. Each man filed a timely notice of
appeal and a motion to proceed as a pauper on appeal, seeking to avoid prepaying
the $505 appellate filing fee. id. §§ 1913, 1917. After examining each petitioner's
financial status, the district courts granted the motions in part under § 1915(a)(1),
requiring each petitioner to make a one-time, partial prepayment of the fee: $50 for
Samarripa and Cole, $350 for Hernandez, and $400 for Mason and Perez.
Each of them renewed his motion in this court, in effect challenging the district
courts' determinations. See Fed. R. App. P. 24(a)(5) and advisory committee's note.
We consolidated the five motions to consider whether federal courts have the
statutory authority to require petitioners to prepay a partial filing fee on appeal of a
§ 2241 petition. We appointed Katherine Wellington to represent the claimants pro
bono.
Before this court, the claimants and the government agreed that the district
courts had no such authority. We appointed James Saywell as amicus curiae to file
a brief in defense of the district courts' orders. Both Ms. Wellington and Mr. Saywell
ably handled their appointments, for which we are grateful.

4a
II.
At stake is whether the law permits partial prepayment of fees or requires an allor-nothing-at-all approach. The text of § 1915(a)(1) says: "[Ably court of the United
States may authorize the commencement, prosecution or defense of any suit, action
or proceeding, civil or criminal, or appeal therein, without prepayment of fees or
security therefor, by a person," based on the court's review of the person's assets
and claim. (Emphasis added). The key language—"may authorize" and "without
prepayment of fees"—does not answer the question. A court that excuses all fees or
some fees still allows a filing "without prepayment of fees." Ample room for
clarification exists in either direction. Had the law said that courts "shall authorize"
litigants to proceed "without prepayment of any fees," that would clarify that courts
face a $505 or a $0 option with nothing in between. Had the law said that courts
"may" allow litigants to proceed "without prepayment of some or all fees," that
would clarify that courts could permit partial prepayments depending on the
person's particular financial situation. Absent more textual guidance from these
words alone, we must keep looking.
Pulling back the lens offers some guidance. The clause immediately following the
key language ("without prepayment of fees or security therefor") implies that courts
may require litigants to post something as security for the filing fees in an
appropriate case. Security for costs falls within a court's broad discretion. See
United States u. Ames, 99 U.S. 35, 36 (1878); Aggarwal v. Ponce Sch. of Med., 745
F.2d 723, 726-27 (1st Cir. 1984). It would be strange, we think, to pair a non-

5a
discretionary item with an eminently discretionary one. The pairing suggests that
the same kind of discretion that accompanies "security" decisions applies to
"prepayment of fees" decisions.
As for the other relevant provision, Appellate Rule 24, it does not answer the
question either way. In setting out a procedure for seeking pauper status on appeal,
it tells the party to file the motion in the district court. If the court grants the
motion, the party may proceed as a pauper on appeal without prepayment. Fed. R.
App. P. 24(a)(2). If the district court denies the motion, the party may file the
motion in the court of appeals, in effect challenging the district court's decision. Id.
24(a)(5). The Rule contemplates granting or denying these motions. Id. 24(a)(2). But
it does not rule in or rule out discretion in between.
History helps. By the time Congress amended the pauper statute in 1996, every
circuit to address the issue had held that § 1915(a)—in place since 1892—allowed
courts to require parties to prepay part of the filing fees. In re Epps, 888 F.2d 964,
967 (2d Cir. 1989); Bullock v. Suomela, 710 F.2d 102, 103 (3d Cir. 1983); Evans v.
Croom, 650 F.2d 521, 524-25 (4th Cir. 1981); Williams v. Estelle, 681 F.2d 946, 947
(5th Cir. 1982) (per curiam); McMurray v. McWherter, 19 F.3d 1433 (6th Cir. 1994)
(unpublished table decision); Lumbert v. Ill. Dep't of Corr., 827 F.2d 257, 259-60
(7th Cir. 1987); In re Williamson, 786 F.2d 1336, 1338 (8th Cir. 1986); Olivares v.
Marshall, 59 F.3d 109, 111 (9th Cir. 1995); Stack v. Stewart, 82 F.3d 426 (10th Cir.
1996) (unpublished table decision); Collier v. Tatum, 722 F.2d 653, 655 (11th Cir.
1983). Noting the breadth of discretion in the statute's terms, the courts construed

6a
the broad power to waive any prepayment of all fees to encompass the lesser power
to waive prepayment of some fees. See, e.g., In re Epps, 888 F.2d at 967; Olivares, 59
F.3d at 111.
When Congress amended the statute in 1996, it did not meaningfully change the
text of § 1915(a)(1). That reality permits the inference that Congress did not wish to
change what had become a uniform practice of permitting courts to require indigent
litigants to prepay some but not all of the fee.
Context offers another clue, and it too arose from the 1996 amendments. Just as
important as what Congress did not do in 1996 is something it did do: It enacted the
Prison Litigation Reform Act. In the PLRA, Congress took away judicial discretion
when prisoners bring civil suits or file appeals. In those cases, "the prisoner shall be
required to pay the full amount of a filing fee." 28 U.S.C. § 1915(b)(1). The court
must assess an initial fee calculated as 20% of either the average monthly deposits
to the prisoner's account or the average balance in the account over the previous six
months. Id. § 1915(b)(1)(A), (B). Prisoners then make precise monthly payments
until they pay the fee in full. Id. § 1915(b)(2). Congress's limit of discretion in this
one area, while leaving § 1915(a)(1) substantially the same, suggests no alteration
to the court's discretion to require partial prepayment in other cases under
§ 1915(a)(1). And Congress's decision to clamp down on judicial discretion in one
area of prisoner litigation while leaving untouched plenty of discretion in another
area suggests an intentional choice. Different language about a similar topic

7a
suggests a difference in meaning. Gross v. FBL Fin. Servs., Inc., 557 U.S. 167, 17475 (2009).
What happens with costs at the end of a case provides another contextual clue
about what should happen with filing fees at the beginning of a case. Section
1915(0(1) provides that "Uludgment may be rendered for costs at the conclusion of
the suit or action as in other proceedings." The general costs statute, 28 U.S.C.
§ 1920, says that a court "may tax" certain items "as costs." Courts consider several
equitable factors to guide their discretion in determining the propriety and amount
of that assessment. See Singleton v. Smith, 241 F.3d 534, 539-40 (6th Cir. 2001).
That means courts have discretion to assess costs, including filing fees, against
losing litigants after the case even if those litigants proceed as paupers. Id. at 53941. No court to our knowledge has interpreted this statute to limit district court
discretion to an all-costs-or-no-costs-at-all inquiry. If Congress gives courts broad
discretion over fees on the back end of a pauper's case (and over cost assessments in
general), it's fair to infer that it wishes equally permissive language on the front
end of a pauper's case to be read in a like way. When asked "who decides" fee
requirements for paupers within the statutory range, Congress answered "courts"
and gave them ample discretion to see it through from the beginning to the end of
the case.
When faced with this issue, the Seventh Circuit in an opinion by Judge
Easterbrook took the same approach, holding that courts may require partial
prepayment under § 1915(a)(1). See Longbehn v. United States, 169 F.3d 1082 (7th

8a
Cir. 1999). Appreciating that courts often required partial prepayment before
Congress amended the statute in 1996, the Seventh Circuit concluded there was no
reason why courts couldn't require partial prepayment after the PLRA in cases not
covered by the PLRA. Id. at 1083. Baked into the courts' discretion in this area, it
reasoned, is the idea that "every litigant has a legal responsibility to pay the filing
and docketing fees to the extent feasible," whether that happens before or after the
case. Id. The court approved the district court's discretionary decision to borrow the
PLRA's 20% formula for determining the requisite prepayment in that habeas
appeal. Id. at 1083-84.
The claimants and the United States oppose this conclusion on several grounds.
First, they argue that the text of § 1915(a)(1) supports their approach. Yes, it's true,
the text is silent about allowing partial prepayment of fees. But it is just as silent in
the other direction. Saying that a court "may authorize" a filing "without
prepayment of fees" does not say one way or the other whether all fees may be
forgiven or just some. A court order that the litigant pay 20% of the fees still
amounts to an order authorizing the filing "without prepayment of fees."
Garza v. Thaler, 585 F.3d 888 (5th Cir. 2009) (per curiam), we acknowledge, took a
different approach. But it's not convincing, and it did not consider many of these
arguments. The district court granted Garza's motion to proceed as a pauper on his
habeas appeal but, in its discretion, required him to pay the full filing fee according
to the PLRA's statutory formula. The Fifth Circuit reversed, reasoning that the
court had no authority to "grant" Garza's motion and still require him to pay in

9a
accordance with the terms of the PLRA. Id. at 890. Garza viewed the district court's
choice under § 1915(a)(1) as binary: Either grant pauper status and require no
prepayment, or deny pauper status and require full prepayment. But, as shown,
Congress contemplated giving courts discretion when it comes to requiring litigants
to pay some or all of the filing fees, before the suit and after it ends. See
§ 1915(a)(1), (0(1). Garza also failed to consider the breadth of discretion in
§ 1915(a)(1)'s text, the history of courts interpreting it to allow partial prepayment,
and the statutory context. Each point undercuts Garza's holding.
Our case for what it is worth differs from Adkins U. E.I. DuPont de Nemours &
Co., 335 U.S. 331 (1948). It held that courts could not require a party's attorneys to
establish their inability to pay fees before deciding whether to grant the party
pauper status. Id. at 340-44. Section 1915(a) did not allow for such "surprising
legislative innovation" by the court. Id. at 341. It required instead that the litigant
herself establish an inability to pay the fee. Unlike the court's innovations in that
case, today's conclusion—that courts may require partial prepayments—attends to
the text, context, and history of the relevant provisions.
The claimants also argue that Rule 24 limits courts' discretion to take-it-or-leaveit grants or denials. That Rule's procedures (filing a motion in the court of appeals
as a way to challenge the district court's decision) would not make sense, they say, if
courts could require partial prepayment. But nothing in the Rule prevents district
courts or courts of appeals from granting in part and denying in part a party's motion, thereby requiring or allowing partial prepayment.

10a
The claimants and the government argue that the PLRA in 1996 abrogated any
authority for courts to require partial prepayment under § 1915(a)(1). At that point,
they note, Congress provided a highly reticulated system for requiring payment
from prisoners in civil cases, which includes partial prepayment. Because
§ 1915(a)(1) includes no such language, they claim that Congress made a structural
decision not to allow partial prepayment for cases not covered by the PLRA. But
that observation turns into the wind rather than with it. Both the claimants and
the government think the PLRA does not apply here. So when Congress clearly took
away judicial discretion over the subset of cases covered by the PLRA, it left unscathed the broad discretionary language that still applies to other cases.
They next point to language in the Criminal Justice Act, which allows courts to
make a person who receives appointed counsel under that Act liable for "partial
payment for [court-appointed] representation" if he "is financially able." 18 U.S.C.
§ 3006A(c). No doubt, Congress could have used that language—"partial payment"—to clarify the pauper statute, but we don't think the difference between that
language and this language makes the dent the parties think it does. Far more persuasive, we think, to focus on similarities in language between direct relatives (28
U.S.C. § 1915(a)(1) and 28 U.S.C. § 191501)) than differences in language between
kissing cousins (28 U.S.C. § 1915(a)(1) and 18 U.S.C. § 3006A(c)).
Last of all, they argue that an all-in-or-all-out system would be more administrable by giving courts fewer options than a partial prepayment alternative. But see,
e.g., In re Epps, 888 F.2d at 967; Olivares, 59 F.3d at 111. One could fairly argue

11a
the point either way. But it doesn't change the language, history, and context of the
provision. Congress gave courts wide latitude in determining when and how much
to require litigants to pay before and after their cases.
That's the hard part. Resolution of the merits of each motion is relatively easy.
After examining each claimant's financial status, the district courts determined the
appropriate partial prepayment. Before us, the claimants must provide "the district
court's statement of reasons for its action" with their motions. Fed. R. App. P.
24(a)(5). We give some deference to the district court's determinations about each
claimant's ability to pay. See Flippin v. Coburn, 107 F. App'x 520, 521 (6th Cir.
2004). None of the claimants has identified any error in the district courts'
decisions, and we see no warrant for questioning them either. We thus will require
prepayment of the same amounts of the appellate filing fees as each district court
required: $50 for Samarripa and Cole, $350 for Hernandez, and $400 for Mason and
Perez.
III.
The district courts resolved this filing-fee question under § 1915(a)(1) rather than
one of the amendments in the PLRA, now codified at § 1915(b) and (g). In their
briefs before us, the claimants and the United States agree that the PLRA does not
apply to habeas petitions filed under § 2241, and all five district courts in these
cases said or assumed that the PLRA does not apply. That turns out to be a more
complicated question than first meets the eye, and the amicus curiae has offered a
thoughtful argument, one to our knowledge not made within our circuit before, that

12a
the PLRA covers this filing-fee question. While we need not resolve the point today,
it is worth setting forth the argument, as it may be useful to future litigants or
courts.
The PLRA's mandatory fee-payment scheme applies "if a prisoner brings a civil
action or files an appeal in forma pauperis." § 1915(b)(1). As the amicus curiae sees
it, the text and context of this language establish that the PLRA applies to all
appeals of habeas petitions, whether filed under § 2241 or for that matter 28 U.S.C.
§§ 2254 or 2255. As for the text, the provision applies when a prisoner "files an
appeal in forma pauperis." § 1915(b)(1). There appears to be no modifier limiting
this language to a subset of pauper appeals. It seems to cover each and every one.
See Walker v. O'Brien, 216 F.3d 626, 641 (7th Cir. 2000) (Easterbrook, J., dissenting
from the denial of rehearing en bane).
Context, too, offers support for this reading. In several places throughout § 1915,
Congress used more specific language to refer to subsets of appeals. Two
subsections, § 1915(a)(2) and (g), apply only when a prisoner "bring[s] a civil action
or appeal[s] a judgment in a civil action." Section 1915(b)(3) applies to "a civil action
or an appeal of a civil action or criminal judgment," and § 1915(b)(4) covers
"bringing a civil action or appealing a civil or criminal judgment." Congress's use of
modifiers to limit the kinds of appeals to which these subsections apply may suggest
that it meant § 1915(b)(1) to cover all appeals.
We recognize that each circuit to address the issue has said that the PLRA does
not apply to habeas appeals. See Reyes v. Keane, 90 F.3d 676, 678 (2d Cir. 1996);

13a
Santana v. United States, 98 F.3d 752, 756 (3d Cir. 1996); Pfeffer v. McBride, 241 F.
App'x 910, 910 (4th Cir. 2007) (per curiam); United States v. Cole, 101 F.3d 1076,
1077-78 (5th Cir. 1996); Kincade v. Sparkman, 117 F.3d 949, 951 (6th Cir. 1997);
Martin v. United States, 96 F.3d 853, 854-55 (7th Cir. 1996); Malave v. Hedrick, 271
F.3d 1139, 1139-40 (8th Cir. 2001) (per curiam); Naddi v. Hill, 106 F.3d 275, 277
(9th Cir. 1997); United States v. Simmonds, 111 F.3d 737, 744 (10th Cir. 1997);
Anderson v. Singletary, 111 F.3d 801, 805 (11th Cir. 1997); Blair-Bey v. Quick, 151
F.3d 1036, 1040 n.2 (D.C. Cir. 1998).
But many of those courts, including ours, do not account for the "or files an
appeal" language in § 1915(b)(1). See, e.g., Kincade, 117 F.3d at 950-51. And those
that attend to this language suggest that "civil" must modify both "action" and
"appeal," such that the PLRA applies only to civil appeals. See, e.g., Reyes, 90 F.3d
at 678; Martin, 96 F.3d at 854-55. But that is not self-evident. The adjective "civil"
assuredly would modify both "action" and "appeal" if the statute said "brings a civil
action or appeal." That would make it similar to the prohibition of "unreasonable
searches and seizures," U.S. Const. amend. 117, or to the Alabama Supreme Court's
ruling that "intoxicating bitters or beverages" means intoxicating bitters and
intoxicating beverages, Ex parte State ex rel. Att'y Gen., 93 So. 382, 383 (Ala. 1922).
See Antonin Scalia & Bryan A. Garner, Reading Law 147-48 (2012). But this
language differs: "brings a civil action or files an appeal." § 1915(b)(1). The repeated
determiner ("an") after the disjunctive conjunction ("or") and a different verb
("files") may suggest that civil does not modify appeal. Scalia & Garner, Reading

14a
Law 148-49. That Congress used different language to specify subsets of appeals in
other provisions of § 1915 also raises questions about the prevailing approach.
Some of these prior decisions rely on context as support for this interpretation.
See, e.g., Simmonds, 111 F.3d at 744. If the PLRA applies, they note, courts
determine the appropriate initial and monthly filing fees based on the balance of
the prisoner's trust fund account. § 1915(b)(1), (2). But § 1915(a)(2) requires
prisoners to provide the court a copy of their trust fund account statements only
when filing a civil action or a civil appeal. It doesn't make sense, this argument
continues, to require only civil-prisoner appellants to file account statements when
courts will need to know information about the accounts for all prisoners' pauper
appeals. See Simmonds, 111 F.3d at 744. All true and all helpful to that position.
But does the point suffice to counter the text, especially since § 1915(a)(2) refers to
civil appeals by name and § 1915(b)(1) does not?
Also driving the prevailing approach seems to be a concern about the impact of the
PLRA's three-strikes rule on habeas petitions. The PLRA prevents a prisoner from
bringing a civil action or a civil appeal as a pauper if he has, while imprisoned,
previously brought three actions or appeals that courts dismissed as "frivolous,
malicious, or [for] fail[urel to state a claim." 28 U.S.C. § 1915(g). Many of these
courts find it hard to believe that Congress would limit the availability of habeas
relief for inmates who had filed three frivolous § 1983 actions, especially since
Congress enacted AEDPA (which places limits on habeas review) at the same time.
See, e.g., Kincade, 117 F.3d at 950-51; Martin, 96 F.3d at 854-56. We share those

15a
concerns. But they may not apply here: The three-strikes provision applies only to
civil appeals, while § 1915(b)(1) appears to apply to all appeals. That means the
three-strikes provision would present a problem for habeas claimants only if a
habeas petition is invariably a "civil" claim. That may or may not be true. Although
we characterize habeas actions as non-criminal proceedings and thus as civil
proceedings in one sense, Fisher v. Baker, 203 U.S. 174, 181 (1906), that "label" can
be "gross and inexact" in some settings, Harris v. Nelson, 394 U.S. 286, 293-94
(1969). Habeas "is unique." Id. at 294. Especially when a habeas petition is used to
collaterally attack a criminal judgment, as in this case, habeas may not fit neatly
into the civil or criminal camp. See Martin, 96 F.3d at 855.
Reading "appeal" to mean all appeals also raises a concern about the possibility
that indigent criminal defendants may not be able to pay the PLRA's fees. But two
statutory provisions seem to go a long way in alleviating that fear. The PLRA itself
says that a prisoner won't be "prohibited from bringing a civil action or appealing a
civil or criminal judgment for the reason that the prisoner has no assets and no
means by which to pay the initial partial filing fee." § 1915(b)(4). On top of that, the
Criminal Justice Act carves out an exception to the PLRA for people who are
appointed counsel under the Criminal Justice Act: They "may" appeal "without
prepayment of fees and costs or security therefor." 18 U.S.C. § 3006A(d)(7). So it is,
generally speaking, that criminal defendants who can't afford to pay for counsel or
to pay the fee won't have to.

16a
In Kincade, it is true, our court held that the PLRA does "not apply to cases or
appeals brought under" §§ 2254 and 2255. 117 F.3d at 951. But the decision did not
address most of the above arguments because they were not presented to the court.
On top of that, Kincade does not clearly tie anyone's hands when it comes to
§ 2241 appeals. See Walker, 216 F.3d at 641-42 (Easterbrook, J., dissenting from
the denial of rehearing en banc) (proposing a different prepayment rule for at least
some § 2241 petitions on the one hand and §§ 2254 and 2255 petitions on the other).
Even so, it's worth pausing over whether that dichotomy is worth the candle.
Channeling fee waiver requests for §§ 2254 and 2255 petitions into one regime and
fee waiver requests for § 2241 petitions into another not only would complicate
matters for clerks' offices, but it wouldn't help much if the applicant simultaneously
sought relief under § 2241 and one of the traditional collateral-relief provisions. No
less importantly, complications would arise when it was not clear what the proper
label for the claim was.
All of this must await another day and another case, one in which the parties
squarely present the arguments below. For now, we accept and agree with each
district court's approach to the case.
For these reasons, we deny the requests of the petitioners to lower their filing fees
and thus require them to pay the respective fees ordered by each district court
within 28 days of this decision.

